WAIVER

Supreme Court of the United States

No. 20-575
Royal Truck & Trailer Sales and Service, v. Mike Kraft, et al.
Inc.
(Petitioner) (Respondents)

IDO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless
one is requested by the Court.

Please check the appropriate boxes:
@ Please enter my appearance as Counsel of Record for all respondents.

OQ There are multiple respondents, and I do not represent all respondents. Please enter my
appearance as Counsel of Record for the following respondent(s):

 

 

O Iam a member of the Bar of the Supreme Court of the United States.

@ lam not presently a member of the Bar of this Court. Should a response be requested,

the response will be filed by a Bar member.
Signature Chat / anf ;

Date: November 24, 2020

(Type or print) Name Richard T. Hewlett (Michigan Bar No. P41271)
@ Mr. OMs. O Mrs. O Miss

Firm Varnum LLP

Address 39500 High Pointe Bivd., Ste. 350

City & State Novi, Michigan Zip 48375
Phone 248-567-7424 Email: rthewlett@varnumlaw.com

SEND A COPY OF THIS FORM TO PETITIONER'S COUNSEL OR TO PETITIONER IF
PRO SE, PLEASE INDICATE BELOW THE NAME(S) OF THE RECIPIENT(S) OF A COPY
OF THIS FORM. NO ADDITIONAL CERTIFICATE OF SERVICE IS REQUIRED.

Ce:
Anthony Sciara, Petitioner's Counsel

Obtain status of case on the docket. By phone at 202-479-3034 or via the internet at
http://www.supremecourtus.gov. Have the Supreme Court docket number available.
